<html>
<title> - AMERICA'S INTERESTS IN THE MIDDLE EAST AND NORTH AFRICA: THE PRESIDENT'S FY 2018 BUDGET REQUEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               AMERICA'S INTERESTS IN THE MIDDLE EAST AND
                     NORTH AFRICA: THE PRESIDENT'S
                         FY 2018 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________

                           Serial No. 115-54

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
26-225 PDF                      WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7">[email&#160;protected]</a>                                
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Stuart Jones, Acting Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................    22
Ms. Maria Longi, Acting Assistant Administrator, Bureau for the 
  Middle East, U.S. Agency for International Development.........    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Stuart Jones: Prepared statement...................     8
Ms. Maria Longi: Prepared statement..............................    14

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    36
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and chairman, Subcommittee on the Middle East and 
  North Africa, and written responses from:
  The Honorable Stuart Jones.....................................    38
  Ms. Maria Longi................................................    42

 
                 AMERICA'S INTERESTS IN THE MIDDLE EAST
                   AND NORTH AFRICA: THE PRESIDENT'S
                         FY 2018 BUDGET REQUEST

                              ----------                              


                        THURSDAY, JULY 13, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 1:00 p.m., in 
room 2167 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses. Without objection, your prepared 
statements will be made a part of the record, and members may 
have 5 days to insert statements and questions for the record, 
subject to the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    Today we are here to discuss the President's budget request 
for the upcoming Fiscal Year 2018 for the Middle East and North 
Africa region. While I have always been an advocate of being 
efficient and effective in the use of taxpayer debt, American 
taxpayer dollars to fund our foreign assistance programs, I 
believe we have many good programs that should not be cut just 
for the sake of scaling back.
    To be sure, there has been plenty of waste, fraud, and 
abuse that needs to be addressed, but those should be addressed 
specifically, not simply by an across-the-board cut. But let us 
start with some of the positives.
    The current request represents $3.1 billion in foreign 
military financing, FMF assistance for our closest friend and 
ally, the Democratic Jewish State of Israel. This level is 
consistent with previous obligations and represents a final 
year of the previous 10-year Memorandum of Understanding, MOU, 
between the U.S. and Israel. We need to honor our obligations 
and guarantee that Israel is able to maintain its qualitative 
military edge, QME, over its neighbors.
    I am also pleased to see that the budget request honors the 
commitments we made to our ally, the Hashemite Kingdom of 
Jordan, under the current MOU between our two countries. Jordan 
remains a vital partner in the fight against ISIS, and its 
stability and security are top priorities for the region, for 
our ally Israel, and for the United States. This will be the 
final year of the current MOU. And I have offered a bill 
alongside Ted Deutch, Nita Lowey, and Hal Rogers that would 
authorize a new and expanded MOU for Jordan to ensure that the 
king can keep his country safe, continue fighting ISIS 
alongside us, and expand his economy.
    I strongly suggest for State to adequately address Jordan's 
economic and security needs as it examines the new MOU, which 
hopefully will be for 5 years, in order to reaffirm our long-
term commitment to the Hashemite Kingdom.
    I am also happy to see that the request for Israel's (sic) 
economic assistance has been reduced, not because I think Egypt 
doesn't need any economic assistance--of course it does--but 
because we still have a considerable pipeline of unobligated 
money in the hundreds of millions of dollars from previous 
years that we have yet to spend. I see no reason to continue to 
ask taxpayers to add to that pipeline until we can clear out 
that backlog. And if that money cannot go out the door in Egypt 
for whatever reason, then perhaps U.S. interests would be best 
served if it was reprogrammed elsewhere.
    And by elsewhere I suggest Tunisia, which brings us to the 
bad in this budget request. First, I'm extremely disappointed 
to see a request for continued assistance for the Palestinian 
Authority. I know we will hear how none of this money goes 
directly to the Palestinian Authority or that a lot of this 
money actually goes to Israel to pay off the PA debt, and that 
we are going--that we are doing important humanitarian 
assistance in the West Bank and Gaza. But we all know that 
money is fungible. For every dollar of PA debt to Israel that 
we pay, that frees more funds for Abu Mazen to pay the salaries 
of terrorists.
    And it means that even though we continue to find that the 
P.A. and the PLO have not lived up to their obligations, they 
continue to incite violence, and they continue to support 
terror, and they continue to work against the interests of the 
Palestinian people. Rather than holding them accountable, we 
are rewarding them with continued U.S. assistance.
    Another disappointment in the budget request is for 
Tunisia. Tunisia has been one of the very few positive 
developments in the region over the past few years. It's not 
without problems, of course, but any country going through a 
transition like Tunisia in an earnest effort to become a 
democratic society is going to have some hurdles to overcome. 
Now is not the time to cut and run, now is the time to double 
down on Tunisia that is at the forefront of fighting terrorism, 
as it has to deal with the problem of foreign fighters coming 
from Tunisia.
    This year's request seriously undermines Tunisia's economic 
progress, and it completely cuts out all FMF assistance to a 
country whose security and stability are vital as it struggles 
to stay on a path toward democratic governance. Tunisia is not 
the only country that lost its FMF assistance under this 
request, which calls into question the dramatic shifts the 
administration has taken in the FMF program itself.
    I hope we hear more about this global FMF fund, which I 
believe is something like $200 million for everyone, and how 
the administration plans on distributing that and its plans for 
moving to loans rather than grants. I worry this may be a move 
by the administration to remove the State Department and, 
therefore, our Foreign Affairs Committee out of the foreign 
military sales realm by cutting FMF, yet making these countries 
eligible to receive Defense Department-funded security 
assistance.
    And though this is not a part of the budget request, this 
also calls into question the State Department's role in the 
Saudi counterterror center. And with Secretary Tillerson in the 
region at the moment, and with the announcement out of this 
Riyadh Summit, it raises questions regarding the agreements we 
just signed with Qatar, and how we will fund our commitments. 
There are also many questions that this budget request conjures 
up. And I have great concern with many aspects of it and how 
this budget will promote America's interests and help raise 
stability and security to the region.
    And with that, I am pleased to yield to the ranking member, 
my friend Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Thanks to Ambassador 
Jones and Ms. Longi for being here today to discuss the 
administration's proposed FY 2018 budget.
    Ambassador Jones, I especially want to thank you for your 
distinguished career serving this country in some of the most 
challenging environments. And while we wish you well in your 
retirement, which I understand is coming in just a few short 
weeks, this country is losing a great diplomat and we are 
grateful for all that you have provided to us.
    Let me say that we appreciate the relationship that we have 
had with your respective bureaus. We hope we will continue to 
work together to address the very real challenges facing the 
Middle East and North Africa. And I want to commend the 
remarkable Foreign Service and career personnel serving at both 
State and USAID. We are fortunate to have tremendously talented 
people who are willing to dedicate their lives to public 
service, often in dangerous conditions. And we are grateful for 
that service.
    That said, I am deeply concerned that senior level 
positions at both State and USAID have yet to be filled. I am 
concerned that while both of you are extraordinarily capable of 
doing your job, you are still filling an acting role 7 months 
into this administration. And I continue to read articles that 
refer to no one being home at the State Department. That is not 
a good message for our friends. It is not a good message for 
our allies. And it is a terrible message to send to our 
adversaries around the world.
    Diplomacy and development should be driving our foreign 
policy decisions, not taking a back seat to whatever decision 
the President cedes to the Defense Department. State and DoD 
should be working hand-in-hand to craft consistent policy 
messages that are amplified coherently across the entire 
government. And I just don't see how this budget request in any 
way prioritizes either diplomacy or development.
    When the Pentagon receives a $54 billion increase and the 
State Department receives a 32 percent decrease, I have a hard 
time hearing the argument that this is about efficiency and 
saving money for the taxpayers. The budget for the Middle East 
and North Africa is by far the largest of the regional funds. 
And the Trump administration is proposing an 11 percent cut in 
bilateral aid to the Middle East and North Africa over the FY 
2016 enacted levels. Most of these cuts are coming from our 
foreign military financing.
    The proposed restructuring of our FMF into one $200 million 
global fund that might be in the form of grants or might be in 
the form of loans is one of the most perplexing things about 
this budget proposal. I can't quite understand why we would 
pull this critical security assistance from countries 
desperately in need of it, like Tunisia and Lebanon. I don't 
understand what kind of message it sends when we tell a country 
that is our partner in the fight against terrorism that instead 
of a dedicated funding stream we are going to somehow figure 
out who will get or how much they get from this new global pot 
of money.
    I am also concerned that converting grants to loans will 
prevent poor countries from getting the assistance they need to 
protect their and our interests. So I would like to better 
understand how you envision the decisions related to the global 
FMF fund that you made, how the priorities will be decided, who 
gets what, and what are we telling our allies who have been the 
recipients of these grants.
    I understand that budget numbers can be deceiving when it 
comes to pipelines and funding streams and allocations of prior 
year funds, but this proposal in no way seems to reflect the 
serious challenges that the region faces. Egypt, which has 
hundreds of millions of dollars sitting in the pipeline because 
we have a fundamental difference with the Egyptians on how 
economic support funds should be used, is still receiving $75 
million in economic support funds.
    Where is the money going to be used, particularly after the 
government's decision to sign the restrictive new NGO law?
    How do these budget cuts reflect the need to bring 
stability or relief to Libya, and Syria, and Iraq, and Yemen 
while continuing to push for a political solution to those 
conflicts. We should be pursuing robust programs that 
strengthen these countries and their people so they can resist 
extremist elements.
    How will the budget help to shore up Jordan, one of our 
most reliable partners in the fight against ISIS, whose economy 
is in terrible shape? The chairman and I continue to work to 
advance our legislation that would secure a new 5-year MOU for 
Jordan, as well as set up an enterprise fund. And I would like 
to hear today about progress on both of these fronts.
    I will say I am pleased to see the FMF for Israel and 
assistance to the Palestinians remain relatively steady. The 
support will be vital as the administration works for a lasting 
peace that hopefully results in two states for two peoples.
    Finally, I am deeply concerned about the idea of folding 
USAID into the State Department, particularly when we hear that 
40 percent of missions across the world would be closed. I am 
quite certain that Congress recognizes the value that our 
humanitarian, global health, and food security programs provide 
to our own national security. And I understand that sometimes 
cuts are necessary, and we all want the government to run more 
efficiently, but simply cutting the four evaluations of the 
efficiency and effectiveness of the department are completed 
seems, frankly, irresponsible, especially when our national 
security is at stake.
    I hope today we will be able to address some of these 
concerns. Appreciate your being here. And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Now the members can make their opening statements. Mr. 
Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair, for holding this very 
important hearing.
    There is no shortage of crises to discuss here today. In 
recent years we have witnessed chaos ensue throughout the 
Middle East and much of North Africa from seemingly endless 
civil war in Syria, to the scourge of ISIS, to a very flawed 
deal with Iran, and on and on. And, unfortunately, the new 
administration adopted a real mess.
    The region has become even more complicated due to massive 
immigration of refugees, and Russia's increasing engagement 
there. And it just really does go on and on.
    Although we may be seeing some successes, such as the Iraq 
army finally reconquering Mosul; and our military taking a 
number of actions to target Syrian- and Iranian-backed forces, 
most notably the strike in response to Assad's use of chemical 
weapons; and the shooting down of a Syrian fighter plane last 
month, it appears Russia and Iranian forces will continue to 
cause trouble in the region into the foreseeable future. So 
that's something that has to be dealt with before the hearing 
in the administration today.
    Thank you for holding this hearing.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch for calling this hearing. And thank you to our 
witnesses for being here to discuss the important topic of U.S. 
priorities in the Middle East and North Africa for Fiscal Year 
2018.
    The proposed cuts that President Trump has submitted to 
Congress are dangerous, short-sighted, and undermine the 
important role the United States plays in supporting peace and 
security in the region. It is critical that the United States 
has the funds necessary to support the current complicated, 
unstable conditions in the region, something the President's 
proposal clearly does not take into consideration.
    At a time when threats from ISIS are unrelenting, Syria 
continues to face an unimaginable humanitarian and refugee 
crisis, and the threat from Iran is ever looming, U.S. foreign 
assistance is more important than ever. The Fiscal Year 2018 
request fundamentally overlooks the threats to security and 
human life that affect countries throughout the Middle East and 
North Africa and America's leadership role in the world. And 
many of my colleagues on both sides of the aisle have expressed 
their concerns over the proposed cuts, both to diplomatic and 
development funding.
    I look forward to the testimony of the witnesses today. And 
I thank you, Madam Chairman, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Cicilline.
    Mr. Cook of California.
    Mr. Cook. Thank you very much, Madam Chair.
    After reading this and looking at the President's budget I 
am very nervous. I am on the House Armed Services Committee. 
Obviously we are interested in the plus-up on some of the 
military spending. But if we ignore our allies, our friends, 
anything else particularly in this region, with these cuts I 
think General Mattis said it, basically you are going to be 
paying for more ammunition.
    And so what you have to save today is extremely important. 
And I think I have been very fortunate to be on both committees 
because you have to work together on that. You can't solve it 
with just bullets, and bombs, and everything else. That if we 
don't have the money there to help these countries it is going 
to be in those terms that I have described.
    So thank you very much for being here. I look forward to 
the hearing.
    Ms. Ros-Lehtinen. Thank you, Mr. Cook.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair, and thank you all 
for being here.
    In case I don't get to ask questions I just wanted to make 
a brief statement, which is I think not only executing the war 
on terror is important, and using the funding to do that, but I 
think we are forgetting about what I call the next generational 
war on terror, which is the 7- and 8-year-olds of today that 
are IDPs or that are in refugee camps that have denied 
opportunities to get an education, or for hope, or economic 
opportunity.
    And with the evil dictator Assad in power and denying this 
opportunity, I actually believe that Assad is the reason ISIS 
exists, and he is the continued incubator for ISIS. So there 
can be no defeat of radical terrorism in Syria with the 
existence of this dictator continuing to foster the conditions 
for this recruitment.
    But when we look at things like USAID, the importance of 
the State Department, and soft power exercise, I think we would 
be very remiss in a few years looking back to have ignored 
those tools in favor of just the military option because we 
would be finding ourselves fighting another generational war on 
terror.
    And so with that, I will yield back.
    Ms. Ros-Lehtinen. Good point. Thank you, Mr. Kinzinger.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman.
    I want to thank my colleague from Illinois for his topical 
comments because this is important. We are at a point in 
history where we have to be looking forward and dealing not 
just with the immediate threats such as ISIS but the sources of 
those threats. And it is visualizing these threats that go into 
the next step to stabilizing these regions, creating a future 
where there is hope.
    Right now we are spending a lot of effort in dealing with 
people and helping people in crisis. We need to be, I believe, 
able to get to a point where we can go from helping people in 
crisis, helping people with good governance, with economic 
development, with education. And I am very concerned, as has 
already been said, that we are cutting our budget at a time 
when the needs are growing. They are growing more diverse, they 
are growing more complex. And as others have said, if we cut 
our budget on diplomacy, if we cut our budget on development, 
it is going to impact what we have to do on defense.
    So, as you address these questions I look forward to 
hearing your answers. And I will also echo the concern that 
here we are 6 months into the year and you are still with the 
titles of acting.
    So, thank you. And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you. And thank you both of you for your 
service. And I apologize you have to hear our frustration.
    So, the world is a dangerous place. And I, I heard that our 
President said he is inheriting a mess. Well, guess what, his 
budget is making a mess. That is my opinion. And his own 
defense secretary said something to the effect that we can't 
gain peace and security just with bombs and bullets.
    And I don't know how we are going to even explain to our 
military personnel or their families that have sent them to 
places, I will use Iraq as an example, where we spend billions 
of dollars to so-called ``win a war'' when we know a country 
has to become stable eventually with development and diplomacy. 
And this budget fails in that respect.
    So, I hope you will be able to explain these cuts. And, 
again, thank you for your service. And I yield back.
    Ms. Ros-Lehtinen. Thank you. And thank you to all the 
members. And thank you especially to our witnesses because we 
will have a series of votes coming up shortly. And in the 
interests of time they have agreed to not give their opening 
statements. I will introduce them and then we will go right to 
questions. And I will start with Mr. Chabot.
    So, first, we are delighted to welcome back the Acting 
Assistant Secretary of State for Near East Affairs Bureau, 
Ambassador Stuart Jones. Ambassador Jones previously served as 
the United States Ambassador to Iraq and Jordan. I have had the 
honor of visiting him in both countries. He is a good friend.
    Prior to this he served in a variety of positions in places 
like Turkey, El Salvador, Colombia, and in our mission at the 
U.N. It is good to see you again, Mr. Ambassador. And 
congratulations on your upcoming retirement. Thank you for your 
30 years of service. And I hope that you and Barbara enjoy 
retirement. Thank you for joining us today. We will look 
forward to hearing your testimony--well, we will look forward 
to reading your testimony and asking you questions.
    And we are delighted to welcome back another good friend, 
Maria Longi. Ms. Longi is USAID's Acting Assistant 
Administrator of the Bureau for the Middle East. Previously she 
served as the Deputy Assistant Administrator for USAID's Middle 
East Bureau. And prior to joining USAID, Ms. Longi served as 
the Director for Management, Policy, and Resources in the State 
Department Bureau of International Organization Affairs.
    So, welcome back. We look forward to you answering our 
questions.
    [The prepared statements of Ambassador Jones and Ms. Longi 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. And with that, we will begin the question 
and answer period with Mr. Chabot of Ohio.
    Mr. Chabot. Thanks very much, Madam Chair.
    And the first question would be, this past weekend at the 
G-20 Summit, a ceasefire was announced for portions of southern 
Syria to be overseen by the United States and Russia. However, 
the ceasefire only covers a small portion, as we know, of 
Syria, and many details remain somewhat unclear.
    Would you be so kind as to outline the terms of the 
ceasefire and how we expect it to be enforced? And does the 
ceasefire prevent Iran or Hezbollah from establishing a 
presence in the ceasefire areas?
    Ambassador Jones. Thank you, Congressman.
    First, Madam Chairman, thank you for your kind words. And 
thank you for your friendship and your support through these 
many years. And your announcement also will be, has been a loss 
for the House. So, thank you very much.
    Congressman, in regards to the ceasefire that was announced 
last week, this represents an agreement between the United 
States, Jordan, and Russia to establish a ceasefire in the 
southwestern quadrant of Syria. And the idea is, of course, 
initially to establish a ceasefire, but, ultimately, to create 
conditions in that area where people could start to return to 
their homes, where we would be able to deliver humanitarian 
assistance, and we would be able to create stability.
    Certainly an essential element of that is to have no forces 
threatening the line of demarcation, whether they be Syrian 
Regime forces, or Iranian forces, or Hezbollah forces. So that 
is certainly part of the expectation.
    That said, some of the details are still to be worked out. 
And we are still working through the mechanics of this. Since 
the ceasefire was announced last Thursday we have seen now 
several days of genuine stability and peace in that vicinity.
    And just right before I got here I got a report from 
Michael Ratney, our Deputy Assistant Secretary, who 
participated in that negotiation. And he said that reports 
today from the area around Daraa and this area where the 
ceasefire has been declared that the ceasefire is holding 
effectively.
    So this is good news for us.
    Mr. Chabot. Thank you very much.
    In the past, Iran and North Korea have cooperated, as we 
know, in missile development. What is the current state that we 
believe of ballistic missile cooperation between Iran and North 
Korea?
    Ambassador Jones. Thank you again, Congressman.
    So, the Iranian development of ballistic missiles we 
believe is a significant threat to stability in the Middle 
East. This is in complete violation of U.N. Security Council 
Resolution 2231. We know that the Iranians are providing 
ballistic missiles and ballistic missile technology to the 
Houthis, which is adding to the conflict in Yemen.
    And there are other instance, too, where the Iranians are 
providing the ballistic missile technology to Hezbollah and 
other terrorist organizations in the region.
    I am sorry, I am not prepared to speak to you about the 
nexus between North Korea and Iran. But, clearly, Iran is an 
evil, is an evil partner in this arrangement.
    Mr. Chabot. Thank you.
    And finally, let me turn to ISIS. Obviously Mosul has just 
fallen, although there are I guess a few things still to wrap 
up here and there. But overall it looks like the Iraqi forces, 
you know, with our assistance and others, have won out there. 
And I would assume that Raqqa will be soon.
    And the question is what--I assume the administration is 
planning on what happens with those who either go back to their 
country or go elsewhere. It will continue the terror in other 
parts of the world. What is the planning going on there, to the 
extent that you can tell us in an open forum?
    Ambassador Jones. Well, thanks for the question again, 
because it is very timely.
    Today, at the State Department, we are hosting a meeting of 
political directors from all the coalition members. And a key 
focus of this discussion has been, what are we going to do 
about the foreign fighters who are going to be now leaving the 
field in Iraq and Syria?
    There is a great deal of concern, as you would expect, in 
Southeast Asia. I had the Deputy Prime Minister--sorry, the 
Deputy Foreign Minister of Australia in my office yesterday 
talking about this very topic: How can we cooperate to make 
sure that we are sharing information and identifying these 
foreign fighters as they cross borders and present threats to 
other regions?
    So this is something that is very much under our attention. 
We are working closely with DoD partners. We are, of course, 
focusing on terrorist finance aspects through the Department of 
Treasury. This is a whole of government approach.
    And, again, this is something that was highlighted during 
the President's summit in Riyadh back in May. The GCC countries 
and, indeed, all of the Muslim countries who attended the 
broader summit pledged to support efforts to counter terrorism 
financing, to counter terroristic and extremist messaging, and 
also to counter the flow of foreign fighters across borders.
    Mr. Chabot. Thank you. My time has expired.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    There has been a lot of attention on Capitol Hill paid to 
the so-called Palestinian martyr payments. And we all abhor 
this practice of incentivizing and rewarding terrorism. 
Certainly does nothing to advance the prospects for peace that 
we all desire.
    I have raised this issue directly with Palestinian 
Authority leaders on multiple occasions. It has been on the 
agenda for President Trump and his advisors in their meetings 
with President Abbas and other Palestinian officials.
    Yesterday the Senate Foreign Relations Committee held a 
hearing on the Taylor Force Act. The legislation in its current 
form would bar aid from all West Bank and Gaza programs until a 
certification could be made that these payments have ceased. 
Now is clearly the time for action. There is momentum in 
Congress and in the administration, and many of our allies 
around the world have joined in decrying these payments.
    The witnesses at yesterday's hearing offered a number of 
suggestions for revisions to the legislation that would ensure 
that we maintain Israel's security, such as withholding PA debt 
payments or setting aside the money as incentive for the PA to 
retrieve it once changes to the practice are made.
    Does the department have a view on these potential pass-
forwards so that the United States Congress can move ahead with 
the Taylor Force Act and finally move on legislation aimed at 
stopping these payments to terrorists?
    Ambassador Jones. Thank you, Congressman. And also thank 
you for your kind words. And I appreciated your visits to my, 
to my various Embassies and very much appreciate your 
friendship.
    Of course the administration shares Congress' commitment to 
ending the programs that incentivize acts of terrorism. 
President Trump has discussed this issue directly with 
President Abbas, emphasizing the need to make significant 
progress on this issue. And, in fact, we have seen some 
progress.
    For the first time in the 52 years of the Palestinian's 
Prisoner Payment Program, the Palestinian Authority cut funding 
to 277 Hamas-affiliated former prisoners last month. Now that's 
not sufficient. None of us think that's sufficient, but it is a 
step forward. We know they have to do more.
    It is not clear that the Taylor Force Act, as currently 
drafted, would help accomplish the objectives that are needed. 
But we--but I agree with you that the hearing yesterday was 
very constructive, some interesting ideas proposed. The 
administration has not yet taken a position on those proposals.
    Mr. Deutch. All right. I appreciate that. I urge the 
administration to look closely at some of those proposals to 
see if there is a way to move forward on this quickly.
    Small investments in programs like the Middle East Regional 
Cooperation Program, which started over 35 years ago, which 
helped foster cooperation between Israel and their Arab 
neighbors, can go a long way. This particular program has never 
received more than $5 million. And it brings together 
researchers from across the region.
    Why, at a time when the White House seems to be pushing a 
regional approach to peace, would we zero out a program like 
this?
    Ms. Longi. Thank you for your question. And thank you for 
all of your support for and words for USAID, and for 
development of humanitarian assistance. We appreciate hearing 
that.
    The Middle East Regional Cooperation Program was zeroed 
out. I will say they do some wonderful programs and there are a 
significant number of grants in their pipeline. So, as a 
practical matter, that program can continue for a little while.
    But we do have several other cooperation programs in the 
Middle East with the Israelis and Palestinians we implement 
between civil society groups, between educators, between 
businesses. So, while this is one of the programs where we do 
have a cooperation between the different players, we do have 
others that support that objective.
    Mr. Deutch. I know that we do. I would also point out it is 
a decision to make a small cut to a program that will 
effectively be eliminated, a program that contributes to peace. 
And I would urge you to reconsider that.
    I am deeply concerned--I wanted to follow up on Mr. 
Chabot's point--I am deeply concerned that the administration 
has been willing to let Russia lead in Syria. And Russia has 
shown no willingness to divorce itself from Assad, from Iran, 
or from Hezbollah.
    You had spoken about the current ceasefire. But I would 
like to just look ahead and ask whether the United States would 
ever agree to a political solution that allows a sustained 
Iranian or Hezbollah military presence in Syria?
    Ambassador Jones. Thank you, Congressman.
    We are very troubled by the Iranian military presence, by 
the Hezbollah presence in Syria. This is a significant risk and 
poses a terrible threat to stability, not only in Syria but to 
the entire region. So we are very troubled by that.
    Our engagement with Russia is aimed at reducing the levels 
of violence inside of Syria today. And so far if this ceasefire 
in southwestern Syria holds, that would be a step forward in 
terms of the reduction in violence and just trying to improve 
people's lives at a very basic level.
    In parallel, the Russians have established a process called 
the Astana Process in which they are working with the Iranians 
and the Turks. And they have also in that forum proposed three 
other de-escalation areas to reduce the, to reduce the levels 
of violence. And, indeed, since they proposed those areas we 
have seen a reduction in violence in those areas.
    So, we will work with the Russians if they continue to be 
able to help us reduce the levels of violence in these areas. 
Hopefully, as we reduce areas of violence we can create greater 
levels of stability, we can provide more humanitarian 
assistance. And then the idea is to move toward a political 
process. And we hope that that political process will remove 
Bashar al-Assad.
    Mr. Deutch. Well, I understand. Let me just be clear 
though. And I understand the step-by-step approach. But my 
question was about a political solution, about a long-term 
plan.
    And I would suggest to you, respectfully, that the idea 
that there can be stability in Syria with a permanent presence 
of Iran and Hezbollah is not a serious one. And that is what I 
am suggesting.
    Ambassador Jones. And I am sorry, I should have, I should 
have said that I agree with you. We agree. We agree on this 
point. There cannot be stability in Syria as long as Iran and 
Hezbollah maintain this current military presence. That is our 
position as well.
    Mr. Deutch. I appreciate it, Mr. Ambassador. Thank you 
both.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Thank you.
    Mr. Cook of California.
    Mr. Cook. Thank you very much, Madam Chair.
    My questions are about there is a whole laundry list of 
countries here that we could address, but let me start off with 
there are two I want to talk about: Bahrain and the huge cut in 
a country where, obviously, our military, the fleet is 
stationed right there. Anyone who has ever gone there they know 
how important that is.
    And then you have the situation with a government that is 
primarily Sunni with the majority of the population Shia. And I 
am afraid that is on the at least my watch list for future 
problems from Iran and what have you. And could you comment on 
that situation?
    And, of course, to see that cut there it like, wait a 
minute, does anybody know what is going on? And whether you 
share my angst in that regard.
    Ambassador Jones. Thank you, Congressman.
    We, we certainly agree that Bahrain is an important 
security partner for the United States. It is the base of the 
6th Fleet. It is an important partner in the coalition against 
ISIS. It is playing a role in the Saudi-led coalition on Yemen. 
We have important security interests and investments in 
Bahrain.
    Bahrain also faces tremendous security challenges. I was 
there recently in March and I met with the Minister of 
Interior. He told me that in the last year he had lost 50 
police officers to Iranian-sponsored terrorism in Bahrain. So, 
we need to stand by Bahrain.
    Again, we will have this regional--sorry--this global 
foreign military financing fund where we will have the 
flexibility to support our partners as needed going forward. 
The Pentagon will also have funds, counter-ISIS funds through 
which they can support programs in Bahrain.
    And, also, to a great degree Bahrain can support its own 
security. And it also receives significant support from its 
Gulf partners. So I am confident that there will be no gaps in 
our approach to Bahrain.
    We are concerned about human rights in Bahrain. But this 
administration has de-linked the conversation on human rights 
to our security support. We are still talking about human 
rights. We are very concerned about the arrest of dissidents 
and the lack of due process, but we have de-linked that from 
the important security support that you mentioned.
    Mr. Cook. Thank you. The other country I wanted to talk 
about was Tunisia. You know, I look at the figures for Libya 
and I understand that. But Tunisia, you know, where the Arab 
Spring and everything like that, where it all started, and that 
was a year, 2 years ago. And saw the remnants where they shot 
up the museum and things like that.
    More telling, at least from an economic standpoint, and all 
the beach resorts and the cruise ships that are now in Croatia, 
or what have you, and the whole economy is, is just basically 
hurting. And it is very, very worried about that country.
    In this, my thoughts on this were reinforced. I was just in 
Italy a few months ago, and the Italians are very worried about 
the human trafficking coming from sub-Saharan Africa, through 
Libya, through Tunisian, some of those countries that are, you 
know, landing every night there.
    And that is going to be basically the same question: Do you 
share my same anxiety about that country where in many ways 
that was our hope for the future for the Arab region?
    Ambassador Jones. Thank you, Congressman.
    As you say, Tunisia is an important partner for the United 
States. Prime Minister Chahed was here this week. He met with 
the Vice President. He met with Secretary of Defense, Secretary 
of Treasury. The Tunisians have been doing a terrific job. They 
are building democratic institutions. They are defeating ISIS. 
They definitely merit our support.
    I think this budget reflects significant support for 
Tunisia. We straight lined our economic support funds with the 
exception of just $20 million. That reflects the fact that we 
have paid up the Enterprise Fund commitment in Tunisia. And the 
Enterprise Fund is succeeding in Tunisia.
    We also, thanks to the support of Congress, were able to 
provide $40 million in supplemental FY 2017 funds in counter-
ISIS funds to Tunisia. Thirty million of that is FMF. So that 
is money that will be going into the system relatively soon.
    As the chairman mentioned, although we have not--this 
budget does not provide for FMF in FY 2018, Tunisia will be a 
higher priority recipient under the global FMF fund, $200 
million FMF fund. I think all of us recognize the principles 
that you have outlined, that we need to stand with Tunisia.
    Let me just say very quickly, too, Tunisia will also 
continue to qualify for DoD 333 funds, also DoD CTEF funds. 
And, also, Tunisia is now the beneficiary of a MCC, Millennium 
Challenge Corporation, compact agreement which will bring a 
significant U.S. investment, multi-hundred million dollar 
investment in infrastructure into Tunisia.
    So, I think we can say we are standing by the Tunisians.
    Mr. Cook. Thank you very much. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cook.
    And before I recognize Mr. Cicilline, we are going to be 
cutting the time for Q&A to 4 minutes because we want to give 
as many members the opportunity to ask questions before the 
votes are called.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chair. Thank you to our 
witnesses, and not only for your service but for the service of 
the men and women you represent. And I regret that we are 
living in a time where there is such an absence of leadership 
in important positions in both your agencies.
    But I want to just quickly move to my questions. First is, 
ISIS control over Syrian land has drastically reduced over the 
past year, particularly of course in the northern part of the 
country. How does the budget that is being presented today 
support the humanitarian aid which will be necessary to promote 
stability in these areas?
    And what can we do, and what does the budget support to 
ensure that these areas are not taken advantage of by new and 
different extremist groups going forward?
    Ms. Longi. Thank you for your question.
    I can start on the humanitarian and development support 
that we provide through this budget, primarily in Iraq and 
Syria, which is where the issues are most prominent right now. 
I think the request on the humanitarian account will continue 
to support the needs that we are seeing in both Iraq and Syria.
    Just this week, we announced another $190 million for the 
humanitarian crisis in Syria. So, we will continue to support 
that issue.
    In Syria, the U.S. Government has already provided over $6 
billion since the Syria crisis began on the humanitarian front. 
And as with Iraq, we have requested sufficient funds, we 
believe, to continue to support those needs.
    For the request on the stabilization front, we are 
anticipating that those needs will be great. The estimates that 
we are hearing from Mosul just this week with the coalition in 
town are upwards of $1 billion. We just announced the 
contribution of $150 million to the UNDP stabilization fund 
there. And so we are working very hard to encourage other, 
other coalition partners to contribute as well. And, hopefully, 
we will be successful on that front because they are already 
seeing returnees because of some of the stabilization efforts 
that they have made.
    In Syria for the stabilization effort, we have requested 
funding in our budget for that. The landscape is unknown for a 
lot of that now. But I think our goal, and what we are 
discussing with our coalition partners, is focusing on 
stabilization once areas are liberated. And so, we are all 
working to tee up partners to do that work and funding.
    Mr. Cicilline. Thank you.
    As Iran and North Korea are enhancing their abilities to 
disrupt military communications and navigation in order to 
degrade information networks, does the Fiscal Year 2018 budget 
propose enough spending to fight this global threat of 
electronic warfare by two of our most serious adversaries?
    Ms. Longi. Could you repeat that?
    Mr. Cicilline. Sure. They are, both North Korea and Iran 
are enhancing their capabilities to disrupt military 
communications and navigation in order to degrade information 
networks. And does the Fiscal Year 2018 budget propose enough 
spending to fight the looming global threat that these 
adversaries present through electronic warfare?
    Ambassador Jones. So, I apologize, Congressman. I am not 
well prepared on what we are doing on electronic warfare. Those 
activities wouldn't come out of the NEA budget. But I can 
assure you that this is a topic of frequent discussion in the 
inter-agency, and both the Pentagon, our intelligence services, 
and others are looking at these issues and are preparing 
approaches.
    Mr. Cicilline. Thank you.
    And my final question. According to Freedom House, freedom 
in the world has been in decline over the last decade. The 
President's request for democracy rights and governance is down 
to $1.5 billion, a reduction in more than $700 million, and 30 
percent compared to the $2.3 billion appropriated by Congress 
in Fiscal Years 2016 and 2017.
    And my question is how does the President's request, that 
dramatic reduction, reflect our country's commitment to 
democracy, human rights, and good governance at a time when the 
threat of instability, violent extremism, and tolerance, and 
authoritarianism seem to threaten more and more people around 
the world? It seems as if we are retreating from that work by 
this very substantial reduction in this budget proposal. And I 
would like to hear your response to that, please.
    Ms. Longi. Thank you. I can say from USAID's perspective 
that democracy and human rights is no less of an emphasis for 
us as we go forward.
    Mr. Cicilline. I understand. But can you do the work that 
is necessary with a 30 percent reduction?
    Ms. Longi. In the Middle East region, we have not requested 
a 30 percent reduction so, hopefully, we are confident that the 
funds that are there will allow us to do what we are able to do 
in these countries. As you acknowledged, that space is getting 
tighter and it makes it more difficult, which makes it tough to 
kind of up our game on the diplomacy and the conversation part 
with the countries, but I think assistance-wise we have 
sufficient funds to do that.
    Ms. Ros-Lehtinen. Thank you.
    Thank you, Mr. Cicilline. And we regret that votes have 
just been called. We have 11 votes. But I think that we will be 
able to get in Mr. Kinzinger and Ms. Frankel's question, and 
I--questions, and I would ask the members to submit the other 
ones, their questions in writing.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair. And, again, thank 
you all for being here.
    I was actually watching a cable news show yesterday, and 
that is not one I usually watch, and there was a respected 
scholar Max Boot on it. And in that exchange with this cable 
news host, this cable news host was talking about basically how 
wonderful it would be to work with the Russians in the Middle 
East and how, you know, the Iranians actually aren't really all 
that bad, and said that, you know, there was no terrorist 
attack by the Iranians against Americans in the United States. 
Although Mr. Boot reminded him that there are about 900 dead 
Americans from Iraq as a result of Iranian involvement and 
influence.
    And I say all that to say there is this kind of like really 
kind of sick narrative out there that we no longer need to 
fight for values, and human rights, and beliefs, and freedom, 
which is very counter to President Reagan, that, you know, I 
became a Republican because of. And now it is this idea that we 
lean again on strongmen, and that dictators can keep order in 
the Middle East, and that somehow repressing human desires is 
possible, even in the age of technology when people can 
communicate and come together.
    I think, you know, when you make the case on Syria for 
instance, people often point to Libya as a disastrous result. 
And there is huge challenges in Libya. I would argue that it 
was our leaving Libya afterwards that has been a big problem. 
But if I compare Libya to Syria, there is no comparison in 
terms of which is the bigger tragedy. In Syria there was no 
intervention; Libya there was intervention. Much different of a 
situation.
    I say all that to ask this: Instead of relying on other 
countries and encouraging them to use military hard power to 
oppress humans, and bomb hospitals, and kill 500,000 Syrians in 
this case, as I mentioned in my opening statement, it is about 
winning over the next generation. We are engaged in a war that 
is going to take as long or longer than the Cold War. The Cold 
War was won not because we had a great military--we did--but it 
was won because multiple generations began to reject the 
philosophy of communism and desire more. That is what is going 
to have to happen in this fight.
    So I guess the question for both of you is, when we talk 
about the next generational war on terror, we talk about the 
budget request, we talk about giving people hope and 
opportunity, not all just us, but working and leveraging our 
allies and partners in the region together, do we have 
sufficient enough resources and strategy to engage in that 
understanding that this is a long-term fight, when ISIS' flag 
falls there is still going to be this ideology and see this 
through to the end?
    I will start with you, Ambassador.
    Ambassador Jones. Well, thank you, Congressman.
    And I think if we look at what happened in May, the Riyadh 
Summit where the President met first with the Saudis and then 
with the GCC and then with the broader Islamic community, and 
in all of those sessions they mutually agreed to fight 
extremism, to counter extremism, to defeat terrorism, and also 
to stand up against the malign Iranian influence that is 
destabilizing the region, that has caused so many deaths and 
destruction in Syria.
    So I think that the Riyadh Summit was an historic event. 
And I think it is important to look at what came out of those 
meetings. And that has created a platform for this 
administration to move forward.
    In the GCC, although there has been this falling out with 
Qatar, we still have a document that creates a platform for 
both counterterrorism and counter-extremism cooperation, but 
also security cooperation throughout the region, blunting the 
malign influence of Iran, and working together to build those 
economies.
    As you know, one of the deliverables from the President's 
visit to Riyadh was the establishment of the ETIDAL Center for 
Counter-Extremism in Riyadh. The director of the center is here 
this week; he has been meeting with U.S. Government officials 
all week. He is taking back new ideas. And this is not just 
about stopping negative messages in the cybersphere, this is 
about addressing the core issues that you have raised in your 
question.
    So I think it is exactly where we are.
    Mr. Kinzinger. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Jones. Sorry.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Kinzinger. Thank you.
    Ms. Ros-Lehtinen. Excellent question. Thank you for the 
answer.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair.
    Let me start by saying that the ignorance of the State 
Department budget is appalling and frightening. We are 
withdrawing from the world at a time when our leadership is 
needed more than ever. And buddying up with Vladimir Putin is 
not a substitute for a well thought out plan for peace and 
security.
    I am not going to ask you any questions because you are 
here to defend what I think is the indefensible. And I think 
you two are just very fine public servants. And I don't want to 
do that.
    So I am going to yield to Mr., the rest of my time to Mr. 
Schneider who wants to take a shot at asking you a question.
    Mr. Schneider. Thank you. I appreciate the moments. And I 
appreciate your service to our country and you being here to 
discuss.
    Two things. One, what was spoken about earlier with the 
ceasefire negotiated in southwestern Syria and the idea of the 
presence of Iran, Iranian troops, Hezbollah troops there, are 
you aware, this ceasefire I assume includes Daraa where this 
started. And I don't know how we can have a process that is 
going to lead to peace by having the same people who have 
oppressed an entire nation because 15 young children spoke out 
against the government, and yet there it is. It includes the 
area to the west of Daraa along the Damascus-Amman Highway, 
which not only borders Jordan but borders Israel. And the idea 
of Iranian troops, the possibility of them ever being there is 
of grave concern.
    So I guess that is a statement more than a question.
    My question is budgets reflect our values, they reflect our 
goals, they ultimately, in theory, should reflect our strategy. 
It seems to me that this budget is a budget developed first 
with numbers, and then we will see if the strategy follows.
    So to each of you, given the draconian cuts, I will argue 
indefensible, unwise, misguided cuts of this budget, what 
impacts is that going to have on A) the ability to achieve our 
goals; are we changing our goals, and B) the strategy that 
follows to achieve those goals?
    Ms. Longi. Yes, thank you.
    I think that the budget for the Middle East is reflective 
and supportive of our goals. I am not going to speak to the 
military piece of it. But on the development and stabilization 
piece, I do think that we have asked for sufficient resources 
to support what our goals are. And those include defeating ISIS 
and stabilizing the regions afterwards, as well as the longer-
term development goals in the countries such as Jordan and 
Egypt, in countries where there is more stability and the 
ability to do that.
    Mr. Schneider. And if I may, I am sorry to interject, but 
because of time.
    Defeating ISIS is critical. We have to defeat ISIS. It is a 
milestone, it is not the endpost. The endpost is a region that 
is stable, a region that is not a threat to the countries 
around it, and to the United States.
    Ms. Longi. And I will just add on that in our strategic 
planning and thinking about the assistance, how we spend the 
assistance in these countries, we do look longer-term to the 
development impacts. And so, we are not just doing the 
immediate stabilization work, we are looking at primary 
education, and jobs creation, and things that do have a longer-
term impact.
    Mr. Schneider. I guess, Ambassador Jones, put you on the 
spot. And I with you great happiness in your retirement. We 
will miss you.
    But as you look back on your career, the budget being 
proposed is it going to make your successors, and those who 
come, the men and women who put their lives on the line day in 
and day out working on behalf of our nation as diplomats in 
development, is their job going to be easier or is it going to 
be more difficult?
    Ambassador Jones. Thank you for your kind words.
    So speaking for NEA, speaking for the Middle East Bureau, 
we, we are looking at an 11 percent cut here. I think we have 
been able to digest these cuts. Clearly, I think there is 
concern about the zeroing out of some of the foreign military 
financing accounts. We will look at how to address that through 
the $200 million FMF Global Fund.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador. Thank you, 
Brad.
    Ambassador Jones. Thank you.
    Ms. Ros-Lehtinen. I know that your wife, Barbara, is 
itching to have you leave as well.
    Ambassador Jones. Thank you.
    Ms. Ros-Lehtinen. But we have 2 minutes left to vote. And 
with that, the subcommittee is adjourned.
    Thank you for your testimony. Thank you.
    [Whereupon, at 2:13 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
